THE DEPARTMENT'S UNCLASSIFIED
 CYBER SECURITY PROGRAM 2002




         SEPTEMBER 2002
                               Department of Energy
                                   Washington, DC 20585
                                    September 9, 2002


 MEMORANDUM FOR

 FROM:
                          Inspector General

 SUBJECT:                 INFORMATION: Evaluation Report on "The Department's
                          Unclassified Cyber Security Program 2002"




As agencies strive to meet the President's goal of significantly increasing electronic
government, the potential for disruption or damage to critical systems by malicious users
continues to increase. In response to increasing threats to the Government's computer
networks and systems, Congress enacted the Government hformation Security Reform
Act (GISRA) in October 2000. GISRA focuses on program management,
implementation, and evaluation of the security of unclassified and national security
information. It requires agencies to conduct annual reviews and evaluations of
unclassified and classified computer security programs.

The Department of Energy is continuously expanding its networks and systems and will
invest about $1.2 billion in information technology this year. This investment spans
virtually all Department activities and includes systems dedicated to financial and
performance management, as well as those devoted to specific mission areas. The
Department also maintains a number of high-speed, nationwide networks detiic,ttcd to
business processing and unclassified scientific research. As required by GISRA and
Office of Management and Budget implementing guidance, the Office of Inspector
General perfomled its second annual evaluation to determine whether the Department's
unclassified cyber security program protected data and information systems.

RESULTS OF AUDIT

The Department had taken a number of positive steps to improve its unclassified cyber
security program since our last review, but many of its critical information systems were
still at risk. Cyber protection efforts were hampered by weaknesses in program
management, planning, and execution. Specifically, we noted that the Department had
not:

           Consistently implemented a risk-based cyber security approach;
           Assured continuity of operations through adequate contingency and disaster
           recovery planning;




                              @    Pr~ntedw ~ t hsoy ~ n on
                                                         k recycled papel
             Strengthened its incident response capability by reporting all computer
             incidents;
             Ensured that employees with significant security responsibilities had received
             adequate training; and,
             Adequately addressed configuration management and access control
             problems.

 We found that the Department had not sufficiently strengthened its cyber security policy
 and guidance, implemented a cyber security performance measurement system, or
 established an effective self-assessment program. As a result, the critical systems were at
 risk of unauthorized or malicious use. Furthermore, the potential existed for compromise
 of sensitive operational and personnel-related data.

In conducting our audit, we were mindful that many Federal and contractor personnel
throughout the Department have worked tirelessly to advance the state of cyber security
protections and to ensure that the Department's information technology assets are
safeguarded. That we noted various compliance issues, as described in our report, in no
way diminishes the diligence and professionalism with which these efforts have been
undertaken. In this vein, we noted a number of positive steps taken to strengthen the
cyber security program. In late 2001, the Department enhanced the stature of the Office
of the Chief Information Officer (CIO) by organizing it as an independent office with a
direct reporting relationship to the Deputy Secretary. Additionally, actions were taken to
improve information technology capital planning. The CTO had also developed a
comprehensive database to track the status of cyber security weaknesses identified by
various reviews and evaluations.

MANAGEMENT REACTION

Management concurred with the findings and recommendations but did not believe that
the recommendation to develop and finalize detailed cyber security policy and guidance
was supported by the report's finding. Specifically, Management stated that
vulnerabilities disclosed in the report resulted from weak or nonexistent compliance with
existing policy at some sites rather than policy weaknesses. Management's comments
are included in their entirety beginning at page 19.

In our view, strengthened policy and guidance is required. For example, the Department
has not developed policies on the deployment of wireless networks or measures to
minimize the risk associated with remote access to networks and systems. Furthermore,
the Department had not formally approved an updated cyber security management
program directive and guidance on configuralion management and system certification
and accreditation. Finally, Lve believe the repeat occurrence of many findings from the
previous year requires a review to the sufficiency of existing policy.


Attachment
THE DEPARTMENT'S UNCLASSIFIED CYBER SECURITY
PROGRAM 2002

TABLE OF
CONTENTS



               Overview

                Introduction and Objective. ......................................................... 1

               Conclusions and Observations ...................................................
                                                                                            2


               Unclassified Cyber Security Proqram Weaknesses

               Details of Finding ....................................................................... 4

               Recommendations and Comments .......................................... 11


               Appendices

               1. Scope and Methodology ..................................................... 13

               2. Related Office of Inspector General and General
                  Accounting Office Reports .................................................. 15

               3. Related Office of Independent Oversight and
                  Performance Assurance Reports ........................................ 18

               4. Management Comments ..................................................... 19
Overview

INTRODUC'TION AND       The protection of cyber related critical infrastructure is essential to a
OBJECTIVE               strong homeland defense and has become a national priority. As
                        agencies focus on satisfying the President's Management Agenda
                        initiative of expanding electronic government, the potential for
                        disruption or damage to mission critical' systems by malicious users
                        continues to increase. Because of the extent of network
                        interconnectivity across the Department of Energy (Department) and
                        the increased i:3:cessibility of systems via the Internet, the risk of
                        compromise o i multiple systems is high. As we noted in our report on
                        Management Challenges at the Department ofEnergy (DOEIIG-0538,
                        December 2001), cyber security continues to be a significant issue
                        facing the Department.

                    The Department continues to expand its networks and systems and
                    expects to invest about $1.2 billion in information technology during
                    Fiscal Year (FY) 2002. This substantial investment supports the
                    development and maintenance of diverse information systems used to
                    meet day-to-day mission requirements such as financial, stockpile
                    stewardship, security, and research activities. In addition to these
                    applications, the Department maintains a number of high-speed,
                    nationwide networks dedicated to business processing and unclassified
                    scientific research. Under the Department's current management
                    structure, the Office of Security is responsible for the development of
                    cyber security policy; the Chief Information Officer (CIO) monitors
                    implementation and issues related guidance; and program officials are
                    responsible for deploying protective measures for systems under their
                    control.

                    In response to the increasing threat to computer networks and systems
                    from both domestic and international sources, Congress enacted the
                    Government Information Security Reform Act (GISRA) in
                    October 2000. Generally, GISRA codified existing policies and
                    regulations and reiterated security responsibilities outlined in the
                    Computer Security Act of 1987 and the Clinger-Cohen Act of 1996.
                    GISRA focuses on program management, implementation, and




                    ' The Department had not developed a complete inventory of mission critical systems.
                    In the absence of such an inventory, we considered a system to be mission critical if.
                    in our opinion, it met the definition found in Section 3532(b)(2)(C), GISRA, i.e., if it
                    "processes any information, the loss, misuse, disclosure, or unauthorized access to or
                    modification of ivould have a debilitating impact on the mission of any agency."

                                                                        Introduction andobjective
                   evaluation aspects of the security of unclassified and national security
                   information and requires agencies to conduct annual agency program
                   reviews and independent evaluations of both unclassified and classified
                   computer security programs.

                  As required by GISRA and the Office of Management and Budget
                  (OMB) implementing guidance, the Office of Inspector General (OIG)
                  performed its second annual evaluation to determine whether the
                  Department's unclassified cyber security program protected data and
                  information systems.


CONCLUSIONS AND   While the Department had taken a number of positive steps to improve
OBSERVATIONS      its unclassified cyber security program, many of i ts critical information
                  systems remained at risk. Cyber protection efforts continued to suffer
                  from program management, planning, and execution weaknesses. As
                  with our initial review, we noted the Department had not:

                          Consistently implemented a risk-based cyber security approach;

                          Assured continuity of operations through adequate contingency
                          and disaster recovery planning;

                          Strengthened its incident response capability by reporting all
                          computer incidents;

                          Ensured that employees with significant security responsibilities
                          had received adequate training; and,

                         Adequately addressed configuration management and access
                         control problems.

                  These vulnerabilities existed because the Department had not
                  strengthened its cyber security policy and guidance, implemented a
                  cyber security p e r f o m c e measurement system, and established an
                  effective self-assessment program. Persistent problems placed the
                  Department's critical systems at risk of unauthorized or malicious use
                  and increased the potential for compromise of sensitive operational and
                  personnel-related data.




Page 2                                                   Conclusions and Observations
          While much remains to be done, the Department had taken a number of
          positive, incremental steps in an effort to strengthen its cyber security
         program. Most notably, in late 200 1, the Department enhanced the
          stature of the Office of the CIO by organizing it as an independent
         office with a direct reporting relationship to the Deputy Secretary.
         Furthermore, the Department had instituted actions designed to improve
         its information technology capital planning process by ensuring that
         cyber security is addressed during the budget process. In addition,
         several sites had strengthened external protections and implemented
         proactive network testing and monitoring programs. The Office of the
         CIO had also developed a Plan of Action and Milestones database to
         track the status of cyber security weaknesses identified by various
         reviews and evaluations. While program improvements have occurred,
         additional work in policy development and implementation is neci.:r.;clry
         to ensure that critical information technology resources are adequately
         protected.

         Due to security considerations, information on specific vulnerabilities
         and locations has been omitted from this report. Management officials
         at the sites evaluated have been provided with detailed information
         regarding identified vulnerabilities, and in some instances, have
         initiated corrective actions.

         Management should consider the issues discussed in this report when
         preparing the yearend assurance memorandum on internal controls.




                                       "0ffic;
                                                               u,
                                                  of Inspector i:l;e~leral




Page 3                                           Conclusions and Observations
 Unclassified Cyber Security Program Weaknesses

Systems and Data      As with our FY 2001 evaluation, we noted problems with risk
Remain at Risk        management, continuity of operations, incident reporting, training,
                      configuration management, and access controls.

                                                  Risk Management

                     The Department had not consistently implemented a life cycle approach
                     to identifying cyber security related risks and vulnerabilities for many
                     of the networks and mission critical systems evaluated. Network and
                     system level security plans had either not been prepared or were
                     inadequate. We analyzed nine mission-critical systems for the
                     adequacy of their security plans. Notably, system specific security
                     plans that analyzed risks and security vulnerabilities such as those
                     associated with attacks by hostile or terrorist supporting nations had not
                     been developed for any of the mission critical systems evaluated.
                     Site-wide cyber security program plans continued to omit specific risks
                     to key systems and the controls necessary to mitigate them.
                     Furthermore, the Department did not require the Office of the CIO to
                     review updated site cyber security program plans to determine whether
                     they adequately addressed known risks.

                     In addition, the Department was unable to determine its risk of
                     exposure to attack by malicious entities because it had not developed an
                     inventory of its networks and systems. As we noted in our FY 2001
                     evaluation, an inventory of networks and systems is an essential
                     element of Information Technology (IT) governance and is necessary to
                     identify applicable risks and vulnerabilities. Although the Department
                     had begun a process to identify and prioritize its critical assets in 2001,
                     the effort remained largely incomplete. As reported in Cyber-Related
                     Critical Infrustructure Ideiitlficution and Protection Measures (DOE/
                     IG-0545, March 2002), the Department had not finalized the
                     identification of national priority assets and the specific identification of
                     critical cyber-related assets had not begun.

                                              Continuity of Operations

                     Eleven of 24 organizations evaluated had not implemented procedures
                     to enable them to recover quickly from a security-related system failure
                     or disruption of critical services. Consistent with our FY 2001
                     evaluation, we noted that site-wide and application-specific continuity
                     of operations plans had not been developed, were outdated, were




Page 4                                                                      Details of Finding
          missing critical elements, or had never been tested for viability.
          Problems with such planning expose the Department to the risk that it
          would be unable to restore critical networks and information systems or
          maintain continuity of operations in the event of a successful attack.

                                     Incident Reporting

          The Department lacked information necessary to adequately manage its
          network intrusion threat because of problems with incomplete reporting
          of cyber security incidents. Even though the Department had taken
          action designed to improve reporting, divergent interpretations of DOE
          Notice 205.4, Handling Cyber Security Alerts and Advisories and
          Reporting Cyber Security Incidents (March 2002) limited the
          effectiveness of the effort. For example, even though the Notice
          established a central point of contact for incident reporting and
          dissemination of cyber security information, it permitted sites wide
          latitude in deciding which incidents to report. The ability to compile
          and analyze trend data was limited because organizations were only
         required to report incidents that they deemed significant. In addition,
         the Department did not require negative reporting, a method for
         ensuring that organizations considered, and did not simply ignore,
         reporting requirements. A Department official noted that, as a
         consequence, a few sites that have installed automated reporting
         equipment reported many incidents, while others reported nothing.
         Without stronger and more consistent reporting requirements, the
         Department cannot draw meaningful conclusions as to the effectiveness
         of its overall intrusion detection capability and may be depriving other
         Federal entities such as the Federal Computer Incident Response Center
         (FedCIRC) or the National Infrastructure Protection Center of
         important trend data.

                                         Training

         Various organizations within the Department offered cyber security
         training, but no means had been devised to readily obtain information
         on the number and duties of those attending training, the type of
         training received, and the overall cost. For example, the Office of the
         CIO tracked individual attendance for courses it funded, but did not
         maintain data on program or site level training. Furthermore, cyber
         security training was not tracked at two of the sites we visited. Also,




Page 5                                                        Details of Finding
          the Department had not developed a core cumculum for those with
          significant security responsibilities, but had established a FY 2003
          performance goal to complete such standards.

                                Configuration Management

          We continued to observe unnecessary network services and problems
          caused by not correcting known software vulnerabilities on
          workstations, servers, and on other devices such as network routers.
          Certain organizations had strengthened network perimeter defenses
         through improvements in firewall deployment, but others continued to
         maintain unneeded network access points. For example, our testing
         revealed that three sites had open ports on firewalls that could
         potentially allow unauthorized access to network resources. We also
         found that five sites permitted unnecessary or improperly secured
         remote access and file transfer services that could permit unauthorized
         access and anonymous remote logins. The risk of malicious or
         unauthorized users exploiting such vulnerabilities to gain unauthorized
         access was exacerbated by the fact that software tools installed at
         several sites did not permit the auditing and monitoring of unusual
         system activity or unsuccessful attempts to access the system over a
         period of time. While some sites had implemented such protections,
         they were not completely effective because the audit logs were not
         regularly reviewed.

         Certain sites were also not properly maintaining systems and
         application software. For example, we found that five of the sites
         evaluated continued to use outdated versions of application and
         operating system software with known vulnerabilities despite frequent
         warnings and advisory bulletins by the Department's Computer Incident
         Advisory Capability. Additionally, several sites had not developed
         documented procedures for consistently evaluating, installing, and
         documenting patches and upgrades to systems and applications. At one
         site, we found several instances where the improper installation of
         software updates overwrote and rendered ineffective previously
         installed security patches.

         Sites had also not established controls to ensure software changes were
         performed in a structured and controlled manner. Six sites lacked
         formal documented procedures for software change controls.
         Mitigating controls to prevent or detect improper changes to systems




Page 6                                                        Details of Finding
          software were also not enforced at all sites. For example, at four sites
          activity logs were not monitored to prevent or detect unauthorized
          software changes. In addition, segregation of incompatible duties was
          not enforced at four of tlze sites evaluated and programmers had the
          ability to make unauthorized changes to systems software without
          management review and concurrence. At one site, a single user had the
          ability to both input and validate information in a system by using two
          separate login identifications.

                                      Access Controls

         Weak access controls and poor password management coi~tinueto be
         problems at certain sites. For instance, six sites did not employ strong
         password controls to minimize the risks associated with exploits such as
         automated guessing or "cracking" programs. Several sites permitted the
         use of vendor's default passwords and at one site management accepted
         off-the-shelf parameters that did not meet the Department's password
         requirements. We also found instances where account access was
         allowed without passwords, including administrator accounts that could
         be used to access multiple servers. Additionally, several sites did not
         require passwords to be changed at fixed intervals. Furthemlore, an
         important control designed to prevent "brute force" access through
         password guessing -- account lockout after numerous incorrect login
         attempts -- had not been activated at two of the sites evaluated.

         As noted in last year's evaluation, several sites had not developed or
         enforced procedures to guide them in granting or removing access to
         systems and computer facilities. For example, at least two sites did not
         periodically review user needs to ensure that access was still required
         and that it was limited to current job requirements. At one site, 37 users
         had administrator access accounts on which the password was set to
         "never" expire. These accounts also were not regularly reviewed to
         determine whether the special access privileges were still necessary.
         We found instances where system access of terminated and temporary
         personnel was not removed in a timely manner. For example, one
         former employee still had system administrator privileges over six
         months after leaving the Department in November 200 1 . Another site
         did not remove system access granted to temporary employees if they




Page 7                                                         Details of Finding
                            were expected to return later. In addition, at two sites we noted that
                            each had about 100 employees with access to the computer facilities.
                            However, over one-third of the employees sampled did not have job
                            responsibilities that required access.

                            We also observed that a number of sites permitted users to remotely
                            access networks without adequate protective measures. Departmental
                            policy did not prescribe specific protective measures for remote access
                            and methods used varied widely. Specifically, programs or sites we
                            evaluated had not considered the risk associated with remote access
                            when preparing cyber security plans, developed specific guidance for
                            remote access security, or required protective measures such as
                            personal firewalls and virus protection software.

Protection of Information   GJSRA requires that each agency develop and implement an agency-
Resources                   wide cyber security program, consisting of policies, procedures, and
                            control techniques, sufficient to protect information systems supporting
                            agency operations and assets. GISRA focuses on program
                            management, implementation, and evaluation aspects of the security of
                            unclassified and national security information. It requires agencies to
                            adopt a risk-based, life cycle approach to improving computer security
                            and requires annual agency information security program reviews and
                            independent evaluations of both unclassified and classified computer
                            security programs. Specifically, GISRA requires:

                                   Periodic risk assessments that consider internal and external
                                   threats to the integrity, confidentiality, and availability of
                                   systems and data;

                                   Policies and procedures that are based on risk assessments that
                                   cost-effectively reduce information security risks to an
                                   acceptable level;

                                   Adequate training of staff responsible for cyber security;

                                   Cyber security awareness training for agency personnel;

                                   Periodic management testing and evaluation of the effectiveness
                                   of the program;

                                  A process for ensuring remedial action to address significant
                                  deficiencies; and

                                  Procedures for detecting, reporting, and responding to cyber
                                  security incidents.
Page 8                                                                           Details of Finding
 Program Design and    Persistent cyber security vulnerabilities existed because the Department
 Implementation        had not strengthened related policy and guidance, implemented a cyber
                       security performance measurement system, and established an effective
                       self-assessment program.

                                         Cyber Security Policy and Guidance

                       Despite a lengthy effort, the Department had not updated or
                       strengthened cyber security policy and related implementing guidance.
                       An updated cyber security management program directive and guidance
                       on configuration management and the system certification and
                       accreditation program had been drafted, but they had not been formally
                       approved or implemented. Updates of existing policy and guidance are
                       of critical importance to establishing an effective feedback loop that
                       tracks changes in technology and takes advantage of the work
                      performed by various oversight groups. For example, while the uses
                       and risks associated with wireless networks have become widely
                      known, the Department had not developed policy regarding their
                      deployment. As we noted in our draft report on Remote Access
                      Security, specific policy or guidance to minimize the risk associated
                      with remote access to networks and systems had not been issued.
                      Guidance to address issues described in our FY 2001 evaluation and in
                      previous audit reports such as problems with risk management, a
                      lifecycle approach to security management, and security personnel
                      training had also not been provided.

                                             Performance Measurement

                      The Department had developed certain cyber security-related
                      performance goals, yet it had not been successful in deploying a metric
                      system needed to measure progress toward reaching those goals. As
                      noted in our prior evaluation, the Office of the C10 designed a Cyber
                      Security Metrics Program to satisfy the requirements of the
                      Government Performance and Results Act of 1993 (GPRA). Despite
                      significant effort, the C10 was unable to gain consensus or support
                      from various program elements and the system was never deployed. A
                      CIO official told us that the proposed metrics system had been
                      redesigned to be consistent with OMB reporting guidance and it was
                      anticipated that it would be finalized in the near future. Officials are
                      hopeful that once completed, the metrics program will form the basis
                      for monitoring the Department's overall cyber security performance.




Page 9                                                                     Details of Finding
                                                      Self-Assessments

                         Despite GISRA requirements and OMB implementing guidance, the
                         Department had not established an effective cyber security self-
                         assessment program. Although specifically recommended in our
                         FY 2001 evaluation, the Department did not require the implementation
                         of the National Institute of Standards and Technology's (NIST) self-
                         assessment methodology for assessing cyber security. While the
                         Department endorsed the use of the methodology in April 2002, use
                         was optional and organizations were not required to provide completed
                         assessments to the CIO for review. Because the Department had not
                         specified a template for conducting such activities, site or system self-
                         assessments tended to vary greatly in their scope and the areas of cyber
                         security reviewed. For example, one site had an assessment performed
                         by an independent external reviewer while other sites performed no
                         self-assessments or performed only limited self-assessments on specific
                         aspects of their cyber security program. A review of comprehensive
                         self-assessments based on NIST guidance could have helped
                         Departmental entities identify cyber security program weaknesses and
                         permitted the CIO and program managers to gauge the effectiveness of
                         policy, guidance and protective measures.

Cyber Security Threats   The threat of compromise of critical information resources continues to
Continue                 grow as the Department establishes additional web-based systems and
                         increases network interconnections. External network scanning and
                         probing activities being conducted by potential hackers continues to
                         grow exponentially. According to sources such as FedCIRC, attempts
                         and actual penetrations of government computer systems has greatly
                         increased over the last year. These incidents included attempted and
                         successful intrusions, compromises, web defacements, denial of service
                         events, virus and malicious code, scans and probes, misuse, and
                         misconfiguration. The failure to properly protect networks and systems
                         and take prompt corrective action on identified weaknesses increased
                         the risk of compromise or malicious damage of the Department's
                         critical systems, some of which enable delivery of essential services to
                         members of the public and other Federal agencies.

                         Inadequate protective measures placed the Department's critical
                         unclassified information systems at risk of attack from internal and
                         external sources and could ultimately result in data tampering, fraud,
                         disruptions in critical operations, and inappropriate disclosure of
                         sensitive or Privacy Act information. A particularly noteworthy




Page 10                                                                       Details of   ind ding
                  example of the potential for harm was cited during a recent OIG
                  investigation. The investigation disclosed that one of the Department's
                  sites was the victim of 44 separate computer intrusions because it failed
                  to correct a known security vulnerability. Specifically, the site ignored
                  warnings by local security officials and the Department's Computer
                  Incident Advisory Capability that a particular network component was
                  vulnerable to a popular attack and should be patched "as soon as
                  possible." Between 700 and 800 hours of effort were required to
                  restore the systems because of this single failure.


RECOMMENDATIONS   To improve cyber security within the Department, we recommend that:

                  1. The Office of Security, in conjunction with the Chief Information
                      Officer and the National Nuclear Security Administration:

                             Develop and finalize detailed cyber security policy and
                             guidance;

                             Implement a periodic policy review process to ensure that
                             policy and related guidance are updated to reflect changes in
                             technology and the results of reviews performed by
                             oversight organizations; and,

                            Complete implementation of a cyber security metrics
                            program to measure the effectiveness of policy, guidance,
                            and protective measures.

                  2. The Chief Information Officer design and monitor the
                     implementation of a structured, program-level cyber security
                     assessment program based on the NIST guidance documents; and,

                  3. The Under Secretary for Energy, Science and Environment and the
                     Administrator, National Nuclear Security Administration require
                     each line organization to promptly correct the cyber security
                     weaknesses identified in this report.




Page 11                                            Recommendations and Comments
 MANAGEMENT REACTION   Management concurred with the findings and recommendations.
                       Although management agreed that new and improved cyber security
                       policy would strengthen protection of cyber assets, it did not believe
                       that the recommendation to develop and finalize detailed cyber security
                       policy and guidance was supported by the report's finding. Specifically,
                       management believed that vulnerabilities disclosed in the report
                       resulted from weak or nonexistent compliance with existing policy at
                       some sites rather than policy weaknesses.

                       Management cited a number of actions already underway to address the
                       report's recommendations, including progress towards developing a
                       new performance metrics program and a program to improve awareness
                       and utilization of the NIST Self-Assessment tool. Management's
                       con~mentsare included in their entirety beginning on page 19.


AUDITOR COMMENTS       Management's comments are responsive to our recommendations.
                       However, we believe that the report clearly demonstrates the need to
                       strengthen policy and implementing guidance. For example, as we
                       pointed out, the Department has not developed policies on the
                       deployment of wireless networks or measures to minimize the risk
                       associated with remote access to networks and systems. Furthermore,
                       the Department had not formally approved an updated cyber security
                       management program directive and guidance on configuration
                       management and system certification and accreditation. Finally, we
                       believe the repeat occurrence of many findings from the previous year
                       requires a review to the sufficiency of existing policy.




Page 12                                                Recommendations and Comments
Appendix I

SCOPE         Between March and August 2002, we performed a vulnerability
              assessment of the Department's unclassified cyber security program.
              Specifically, we assessed controls over network operations to determine
              the effectiveness of access controls related to safeguarding information
              resources fiom unauthorized internal and external sources. The
              evaluation included a limited review of general and application controls
              in areas such as entity-wide security planning and management, access
              controls, application software development and change controls, and
              service continuity. Our work did not include a determination of
              wheiiicr vulnerabilities found were actually exploited and used to
              circunlvent existing controls.


METHODOLOGY    We conducted the second annual evaluation of the Department's
               unclassified cyber security program as required by GISRA. We
               satisfied our evaluation objective by reviewing applicable laws and
               directives pertaining to cyber security and information technology
              resources, such as GISRA, OMB Circular A- 130 (Appendix 111), and
              DOE Notice 205.1, and reviewing the Department's overall cyber
              security program management, policies, procedures, and practices.
              Selected Headquarters offices and field sites were evaluated in
              conjunction with the annual audit of the Department's Consolidated
              Financial Statements, utilizing work performed by KPMG LLP, the
              OIG contract auditor. The evaluation included analysis and testing of
              general and application controls for systems as well as vulnerability and
              penetration testing of networks. To minimize duplication of effort, we
              directly incorporated the results of other recent audits, evaluations, and
              inspections performed by the OIG, the General Accounting Office, and
              the Office of Independent Oversight and Performance Assurance in our
              report.

              We evaluated the Department's implementation of GPRA related to the
              establishment of performance measures for unclassified cyber security.
              We did not rely solely on computer-processed data to satisfy our
              objectives. However, computer-assisted audit tools were used to
              perform probes of various networks and devices. We validated the
              results of the scans by confirming the weaknesses disclosed with
              responsible on-site personnel and performed other procedures to satisfy
              ourselves as to the reliability and accuracy of the data produced by




Page 13                                                     Scope and Methodology
          the tests. Because our evaluation was limited, it would not have
          necessarily disclosed all internal control deficiencies that may have
          existed.

          The evaluation was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the objectives. Accordingly, we
          assessed internal controls regarding the development and
          implementation of automated systems. Because our review was
          limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our evaluation.

          Department officials requested an exit conference. It will be scheduled
          within two weeks of the issuance of this report.




Page 14                                              Scope and Methodology
 Appendix 2

          OFFICE OF INSPECTOR GENERAL AND GENERAL ACCOUNTING OFFICE
                               RELATED REPORTS


      Nuclear Materials Accounting Systems Modernization Initiative (DOEIIG-0556, June 2002). The
      Department had not adequately managed its system redesign and modernization activities for
      nuclear materials accounting systems. Planned and ongoing nuclear materials accounting systems
      development activities were not always consistent with the Corporate Systems Information
      Architecture.

      Cyber-Related Critical Infrastructure Identrfication and Protection Measures (DOE/IG-0545,
      March 2002). While the Department had initiated certain actions designed to enhance cyber
      security, it had not made sufficient progress in identifying and developing protective measures for
      critical infrastructures or assets. For example, the audit disclosed that the identification of national
      priority assets had not been finalized and the specific identification of critical cyber-related assets
      had not begun. Corrective actions to address issues disclosed by our previous audit of the
      Department's infrastructure protection program were progressing slowly and remained incomplete.
      For instance, specific, quantifiable infrastructure protection-related performance measures had not
      been developed and the Department's critical infrastructure protection plan had not been updated.

      The Department's Unclasszfied Cyber Security Program (DOEIIG-05 19, August 2001). While the
     Department has made improvements in its unclassified cyber security program, the program did not
      adequately protect data and information systems as required by GISRA. Specifically, we observed
     problems with security program planning and management, including problems with risk
     management, contingency planning, computer incident reporting, and training management.
     Configuration management or access control problems also existed at many of the 24 sites
     evaluated. Problems with design and implementation of cyber security policy, including a lack of
     monitoring and specific, focused performance measures, contributed to these weaknesses and
     adversely impacted the effectiveness of the entity-wide program. Observed weaknesses increased
     the risk that critical systems, a number of which enable delivery of essential services to members of
     the public and other Federal agencies, could be compromised or disabled by n~aliciousor
     unauthorized users.

     Evaluation of Classrfied Information Systems Security Program (DOEIIG-05 18, August 2001).
     Overall, the evaluation of classified information systems was performed as required by GISRA.
     Office of Independent Oversight and Performance Assurance's "Report on the Status of the
     Department of Energy's Classified Information System Security Program" should provide the
     Department with reasonable assurance that the processes of managing and controlling classified
     information systems were independently evaluated.




Page 15                                                                                    Related Reports
      Integrated Planning, Accountability, and Budgeting System-Information System (DOEIIG-0509,
      June 200 1). The Integrated Planning, Accountability, and Budgeting System-Information System
      (IPABS-IS) was not integrated into the Department's Corporate Systems Information Architecture.
      As a consequence, there were project management and security weaknesses in the development and
      operation of IPABS-IS that impacted its ability to satisfy Department goals and meet users'
      information needs.

      The Department of Energy's Implementation of the Clinger-Cohen Act of1996 (DOEIIG-0507,
      June 200 1 ). While the Department had taken action to address certain IT related management
      problems, it had not been completely successful in implementing the requirements of the Clinger-
      Cohen Act of 1996. We attributed the problems identified, in part, to the Department's
      decentralized approach to information technology management and oversight and the organizational
      placement of the CIO.

      Virus PI-otectionStrategies and Cyber Securify Incident Reporting (DOEIIG-0500, April 2001).
      The Department's virus protection strategies and cyber security incident reporting methods did not
      adequately protect systems from damage by viruses and did not provide sufficient information
      needed to manage its network intrusion threat. These problems existed because the Department had
      not developed and implemented an effective enterprise-wide strategy for virus protection and cyber
      security incident reporting.

     Fiscal Year 2000 Consolidated Financial Starements (DOEIIG-FS-01-01, February 200 1 ). The
     report identified three reportable weaknesses in the Department's system of internal controls
     pertaining to performance measure reporting, financial management at the Western Area Power
     Administration, and unclassified information system security. Specifically, performance goals, in
     many cases, were not output or outcome oriented andlor were not meaningful, relevant, or stated in
     objective or quantifiable terms. The Department also had certain network vulnerabilities and
     general access control weaknesses.

     Internet Privacy (DOEIIG-0493, February 200 1 ). The Department's method of collecting data from
     users of its publicly accessible web sites was not always consistent with Federal regulations.
     Specifically, some web sites were collecting data by unapproved or undisclosed means and a
     number of web sites did not display conspicuously located, clearly written privacy notices.

     Implementation of Presidential Decision Directive 63, Critical Infrastrucrure Protection (DOEIIG-
     0483, September 2000). While external energy sector infrastructure protection activities were
     progressing and a number of internal and collateral actions had been completed, the Department had
     not implemented its critical infrastructure protection plan to mitigate significant vulnerabilities, or
     assure the continuity and viability of its critical infrastructures.




Page 16                                                                                  Related Reports
      Major Management Challenges and Program Risks: Department of Energy (GAO-01-246,
      January 2001). This report, part of GAO's high-risk series, discusses the major management
      challenges and program risks facing the Department. GAO found, among other things, security
      weaknesses in public Internet access to sensitive information on the Department's networks and in
      computer security at the Department's science laboratories.

      Information Security: Serious and Widespread Weaknesses Persist at Federal Agencies (GAOI
      AIMD-00-295, September 2000). GAO noted that a major contributing factor to the existence of
      the Department's security vulnerabilities was ineffective and inconsistent information technology
      security management throughout the Department. GAO found that, among other things, the
      Department had not prepared federally required security plans, effectively identified and assessed
      information security risks, or fully and consistently reported security incidents.

      Information Security: Sofh~areChange Controls at the Departlnenl of Energy (GAOIAIMD-OO-
      189R, June 2000). GAO reviewed software change controls at the Department focusing on, among
      other things, whether key controls as described in agency policies and procedures regarding
      software change authorization, testing, and approval complied with Federal guidance. They
      reported that Department-wide guidance and formal procedures were inadequate and several
      components reviewed had no formally documented process for routine software change control.

     hformatiotr Security: Vulnerabilities in DOE2 Systems for Unclasszfied Civilian Research (GAOI
     AIMD-00- 140, June 2000). Unclassified scientific research information systems were not
     consistently protected at all Department laboratories. Althoug!~some laboratories were taking
     significant steps to strengthen access controls, many systems remained vulnerable. A major
     contributing factor to the continuing security shortfalls at these laboratories was that the Department
     lacked an effective program for consistently managing information technology security throughout
     the agency.




Page 17                                                                                  Related Reports
 Appendix 3


  RELATED OFFICE OF INDEPENDENT OVERSIGHT AND PERFORMANCE ASSURANCE
            /OA) REPORTS INCORPORATED INTO OUR EVALUATION



          hldependent Oversight Inspection of Cyber Security at the 1'-12 National Security
          Complex (November 2001)

          Independent Oversight Inspection of Cyber Security at U.S. Department of Energy
          Headquarters (January 2002)

          Ir~dependentOversight Cyber Security Inspection of the Oakland Operations Office and
          the Lawrence Livermore National Laboratory (April 2002)

          Independent Oversight Inspection of Security and Cyber Security at the Kansas City Plarzt
          (May 2002)

          Independent Oversight Cyber Security Inspection of tlte Office of Anlarillo Site Operations
          and Pantex Plant (May 2002)

          Independer~tOversight Cyber Security hzspection of the R o c b ~Flats Field Office alzd the
          Rocky Flats Environmental Technology Site (June 2002)




Page 18                                                  Related Office of Independent Oversight and
                                                                     Performance Assurance Reports
 Appendix 4


                                            Department of Energy
                                                V4ast;1ng:cri, DC 20585




           MEMORANDLIM FOR:             RICKEY R. HASS
                                        DIRECTOR, SCIENCE, ENERGY, TECHNOLOGY AND
                                        FINANCIAL AUDITS UG-34)

           FROM :                       KAREN S. EVANS
                                        CHIEF

                                        Cor~snlidatedColnmcnts on Draft Inspector General Rcport on
                                        "Thc L)epartmcnt's Unclassified Cyber. Security Program 2002"


          'l'he Oi'ficc of the Chief Information Officer (OCIO), as the designated primary act~onoffice
          responding to this report, has prcparcd consolidated comments to the draft Inspector General
          Repon on "The Department's Unclassitiecl Cyber Security Yrob~am2002". Comrncnts have
          been recci\.ed from the Oflice of Security, Office of Indcpendent Oversigl~tand Perfomlance
          Assurancu, National Nuclear Security Administration, and the Under Secretary for Energy,
          Scicncc and Environment.

          The lnspector Cicncral rcqucstcd that com~nentsbe provicird with thc draft. If'thc reviexving
          organl~ationswcrc in agreement ivitli the recommendations, then thcy wcrc to state the
          corrcc~i\eactions taken or planncd and the actual or target dates for the actions. The OClO has
          attached the consolidated comments.

          The OClO has coordinated this response with all rcsponding organizations. Please feel free to
          corltact John Przysucha on 203-586-8836, or myself on 202-586-0166.



          Attachment

          CC :
          EE
          IN- 1
          FE
          CK- 1
          0A
          EM
          OblUE
          SO
          NNSA




Page 19                                                                              Management Comments
 Appendix 4 (continued)



           Attachment

                               Consolidated Comments on Draft Evaluation Report
                           "The Department's Unclassified Cyber Security Progratr~2002

           Con~mentson thc Recommendations

           Recommendatio~l1 : The Officc of Security, in conjunction with the Chief Tnfonnation Officcr
           and he Kational Nuclear Security Administration:
              a) Develop and finalize detailed cyber sccurity policy and guidancc;
              b) Implement a periodic policy review process to ensure that policy and related guidancc arc
                  updated to reflect cllanges in technology and the results of reviews pcrfom~cdby
                  oversight organizations; and,
              C ) Complete implementation of a cyher security rnctrics program to measure the
                  efYcctivcncss of policy, guidance, and protective measures.

          Response: Concur wlth comment.
          a. Thc Departmcnt has embarked on a course ol'strengtllening cyber sccurity policy and
          require~~lcnts  in rcsponse to thc challenges poscd by rapidly changing technology a ~ l dincreasing
          thrcats. Government and industry have also bccn cvolving national standards to counter the
          incrcascd risk. Although the Departmcnt has cyber sccurity policy in placc, wc arc continuing to
          raise thc b.ar with rcspcct to what is requircd by our implementing organizations.

          While w e recognizc thc nced to cnhance cyber security policy and guidance, the draft Inspector
          Cicncral (IG) repoi? does not provide sufficient findings to support this recommendation.
          Spccilically, rhe compelling examples providcd, which demonstrate a nccd for irnproved c y b e ~ ,
          security at DOE sites, are largely compliance issues. In most cases presented in this rcport, there
          is cyber sccurity policy in place that addresscs tllc specific issues. Most notcd dciicic~~cics
                                                                                                        arc
          due to weak or nonexistent conlpliance with rclcvant policy at somc DOE sites. While we do not
          dispute the factual accuracy of the information providcd in the body of thc IG rcport, and also
          agree that ncw and improved cyber security policy will strengthen protection of DOE cyber
          asscts, we find that this rccommcndation is not clearly supported by the report's fixldings an&or
          examples.

          With respect to the portion 01- this recornmcndation conccn~ingthe de\~elopmentand finalization
          of cyber sccurity policy and guidance, SO and thc Oflice of the Chicf lnfonnation Officcr
          (OC10) have been working to rcplace DOE N 205.1, U~~clussijied        Cyher Securitj~P~.ogram(and
          other cyber security directives), with a new sct of directives that include a DOE order and sevcral
          manuals and guidcs. The proposed order, 1)OE 0 476.X. Dcparrrnt.rll oj'Ener.gy Cyber Securiql
          hfunagcnlent Progrant, will eilhancc managerial structure and accountability throughout the
          Departr-ncnt. The coordinated set ofn~arlualsand guidcs will articulate appropriatc minimum
          requircmcnts and imple~llcntatjonassistance respectively. TogcO~er.(hese directives w i l l c o ~ ~ ~ p c l
          the performance ot.rtcomes r~ccdeci\o strcngthcn cyber security in DOE. Although developing
          and issuing sufficient welf-balanccd policy and guidance in this area is a conlplex and non-trivial
          task, SO and OCTO have already placed signilicant priority on updating cybcr sccurity policy
          and guidance for the Dcpartment and are wcll along tlle way to accomplishing this objcctivc.




Page 20                                                                                   Management Corr~rnents
 Appendix 4 (continued)



           Significant enhancements that are currently in rcvicw within the Departrnent includc a Risk
           Managclnent .Manual addressing an integrated approach to risk assessment, configuration
           managcmcnt, and verification and validation and a Certification arid Accreditation Manual. The
           manuals are under review by both the Cybcr Security Coordination Group and the Policy
           Working Group prior to their fornial submittal into the directives process. Both manuals are
           consistent with NIST guidance and arc scheduled to be issued by the end of the secorld quartcr of
           FY 03.

           b. Regarding the recomme~idationto "implemcnt a process to ensure that policy and related
           guidancc are updated to reflcct changes in technology", S O and OCIO have two existing
           working groups to facilitate this activity. The first is the Policy Working Group (PWG), whose
          chaaer is to providc policy and bcst practice reconirnendations to the CIO. PWCi members are
          drawn from throughout thc DOE, including both Fedcral and contractor personnel. The seconti
          group is the Technical Working Group (TWG), which is charged with assessing technology
          issues, ascertaining best sccurity practices, and evaluating the changing nature of threats facing
          DOE and its organizations. The TWG includes reprcscntatives from DOE, its contractors, and
          other non-governmental participants who can provide the necessary technical insight and
          guidancc. Thc drait report does not address the existence of these two groups. Additionally,
          through SO, DOE intends to constitutc a Cyber Security Quality Panel, which will bring together
          a divcrse spectrurii of end users, cyber security managers, risk management decision makers, and
          technologists to sharc needs and solutions to support DOE visions, objectives and policy drivers.
          OCIO and SO will continue to evaluate rhc coniplcrncntary roles of the PWG, T W G and the
          planned Cyber Security Quality Panel to ensure that they (and their participants) arc used most
          effectivcly for the Departnienl. Furthermorc, implementation by the C10 of Action 5-2 resulting
          from the tlamrc report on "Science and Technology in the 2 1" Century", results in the
          establishment of a high-level cybcr advisory panel tvhich would also scnrc this function. Using
          all of these groups effectivcly would provide tlie Department with the capability to satisfactorily
          addrcss this rccomniendation. Thc first meeting of the cybcr advisory panel is expected by tlie
          end of Scpternber.

          With respect to fulfilling its policy developnient responsibility for DOE, SO already ensures that
          "policy and relatcd guidance are updated to reflcct the results of rcviews performed by oversight
          organizations". Again. there is little support for this recornmeridation in thc main text of this
          report.

          c. A new metrics prograni. using tlle Office of Mariagenicnt and Budget (OMR) GlSKA
          reporting rcquirements as a baseline combined with mctrics specific to unique aspccts of DOE. is
          in thc process of bcing launched via a Departmental memo from tlie CIO. The morc than 40 Ticr
          I metrics in thirteen dif'fcrent reportable areas. to includc classified and unclassified progranis.
          will serve as tlie basis for the Department's Cyber Security Performance Measurement Program
          which will bc launched by the end of FY 02.

          Data will be forwarded, on a six month basis, to thc Officc of Cyber Security ivhich will collect,
          consolidate, analyzc, and disseminate its findings to senior Departlncntal managcmcnt and other
          legislati\~e/exccutivcoversight organizations as appropriate. Collecting tlie performarice




Page 21                                                                                  Management Corr~rnents
 Appendix 4 (continued)



          ~rieasuremcntdata will allow the Office of Cybcr Security to establisl~trends, idcntify potential
          areas of wcaluiess, and focus on inrprovenlent actions that will provide Department-wide
          benefits, to include improving policy, oversight, and managernent control.

          Recon~trlcttdation2: Thc Chieflnformation Officer dcsign and monitor the implemeiltation of
          a structured, program-levcl cybcr sccurity assessment program based on the NIST guidance
          documents.

          Resvonse: Concur.
          The CJO has already begun a program to improve awarcncss and utilization of the NIST I?' Self-
          Assessment tool ASSET. The Associate CIO for Cybcr Security released a memorandum to the
          program offices and their subordinate elements reiterating thc inlportance of self-assessments
          (including references to OMB and DOE requirements) and promoting the use of the NlST 800-
          26 I?' Sclf-Assessment Framework. The ASSET loo1 set has been provided to thc Cybcr
          Security Coordinating Group and the Policy Working Group. By the enti of FY02, thc Associate
          C10 for Cybcr sccur,ty will launch an cducation and awareness initiative regarding ASSET. In
          addition, NIST is in the process of launching their perfornlancc metrics program. Thc
          Department's mctrics are patterned aficr those requcsted in OMB-s GlSRA reporting guidance
          for FY02. DOE'S mctrics program will continue lo evolve as the NlST metrics are issued.

          Recommendation 3: The Under Secretary for Energy, Science and Environment and thc Undcr
          Secretary for National Nuclear Security, Administrator, National Nuclear Sccurity
          Adnliriistration rcquire each line organizations to promptly correct cyber sccurity weaknesses
          identified i l l this report of the evaluation.

          Response: Concur.
          Thc Under Secretaries of Energy. Science and Environment and National Nuclear Sccurity
          Administration suppol? requiring cach line organization to promptly correct the cyber security
          weaknesses identified in the report of evaluation.




Page 22                                                                                Management Comments
 Appendix 4 (continued)



          CONCURRENCES ON MANAGEhIENT DECISION PACKAGE FOR DRAFT
          INSPECTOR GENERAL'S REPORT ON "THE DEPARTMENT'S UNCLASSIFIED
          CYBER SECURITY PROGRAM 2002"




          NNSA
          See attached
          '=Y i/!d       L




          US
          -
          See attached
          9/ G:/c2.
                             Mi




Page 23                                                   Management Comments
                                                                               IG Report No.: DOEIIG-0567

                                     CUSTOMER RESPONSE FORM


 The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
 wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
 you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
 enhance the effectiveness of future reports. Please include answers to the following questions if they are
 applicable to you:

 1. What additional background information about the selection, scheduling, scope, or procedures of the
    audit would have been helpful to the reader in understanding this report?

 2. What additional information related to findings and recommendations could have been included in this
    report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                           Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG- 1 )
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1 924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Lntemet at the
                                            following address:


                  U.S. Department o f Energy, Office of Inspector General, Home Page
                                        http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
